U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Department of Homeland Security, et al. v. New York, et al., No. 20-449
Dear Mr. Harris:
Pursuant to Rule 37.3, the petitioners hereby provide their blanket consent to the filing of
amicus briefs in support of either party or neither party in the above-captioned case.
Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0449
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, ET AL.
NEW YORK, ET AL.

BAHER AZMY
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6464
BAZMY@CCRJUSTICE.ORG
JONATHAN H. HURWITZ
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON, LLP
1285 AVENUE OF THE AMERICAS
NEW YORK, NY 10019212-373-3254
JHURWITZ@PAULWEISS.COM
CLARE E. KINDALL
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
10 FRANKLLIN SQUARE
NEW BRITAIN, CT 06051
860-827-2683
CLARE.KINDALL@CT.GOV
GEORGIA MARY PESTANA
INTERIM CORPORATION COUNSEL
NEW YORK LAW DEPARTMENT
100 CHURCH STREET
NEW YORK, NY 10007
212-356-2400

JULIO A. THOMPSON
ASSISTANT GENERAL COUNSEL
VERMONT OFFICE OF THE ATTORNEY
GENERAL
1711 BLISS ROAD
EAST MONTPELIER,, VT 05651
802-828-5519
JULIO.THOMPSON@VERMONT.GOV
BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
ATTORNEY GENERAL'S OFFICE
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-6274
BARBARA.UNDERWOOD@AG.NY.GOV

